<html>
<title> - SECURING OUR SURFACE TRANSPORTATION SYSTEMS: EXAMINING THE DEPARTMENT OF HOMELAND SECURITY'S ROLE IN SURFACE TRANSPORTATION TECHNOLOGIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                  SECURING OUR SURFACE TRANSPORTATION 
   SYSTEMS: EXAMINING THE DEPARTMENT OF HOMELAND SECURITY'S ROLE IN 
                  SURFACE TRANSPORTATION TECHNOLOGIES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON TRANSPORTATION
                        AND PROTECTIVE SECURITY

                                AND THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2018

                               __________

                           Serial No. 115-47

                               __________

       Printed for the use of the Committee on Homeland Security

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
30-193 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="791e0916391a0c0a0d111c1509571a161457">[email&#160;protected]</a> 
                                         

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

         SUBCOMMITTEE ON TRANSPORTATION AND PROTECTIVE SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Bonnie Watson Coleman, New Jersey
Clay Higgins, Louisiana              William R. Keating, Massachusetts
Brian K. Fitzpatrick, Pennsylvania   Donald M. Payne, Jr., New Jersey
Ron Estes, Kansas                    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Kyle D. Klein, Subcommittee Staff Director

                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Martha McSally, Arizona              James R. Langevin, Rhode Island
John H. Rutherford, Florida          Bonnie Watson Coleman, New Jersey
Thomas A. Garrett, Jr., Virginia     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
       Moira Bergin, Minority Subcommittee Staff Director/Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  and Protective Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    10

                               Witnesses

Ms. Sonya Proctor, Director, Surface Division, Office of Security 
  Policy and Industry Engagement, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................    11
  Joint Prepared Statement.......................................    12
Mr. Robert Pryor, Director, Intermodal Division, Office of 
  Requirements and Capabilities Analysis, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................    15
  Joint Prepared Statement.......................................    12
Mr. Donald E. Roberts, Program Manager, Explosive Threat 
  Detection, Explosives Division, Homeland Security Advanced 
  Research Projects Agency, Science and Technology Directorate, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17
Mr. Brian Michael Jenkins, Director, National Transportation 
  Security Center of Excellence, Mineta Transportation Institute:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20

                             FOR THE RECORD

The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Letter from the American Public Transportation Association.....    24

 
 SECURING OUR SURFACE TRANSPORTATION SYSTEMS: EXAMINING THE DEPARTMENT 
   OF HOMELAND SECURITY'S ROLE IN SURFACE TRANSPORTATION TECHNOLOGIES

                              ----------                              


                       Tuesday, January 30, 2018

     U.S. House of Representatives,        
      Committee on Homeland Security,      
        Subcommittee on Transportation and 
                   Protective Security, and
           Subcommittee on Emergency Preparedness, 
                      Response, and Communications,
                                            Washington, DC.
    The subcommittees met, pursuant to notice, at 2 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. John Katko (Chairman 
of the subcommittee) presiding.
    Present: Representatives Katko, Donovan, Higgins, 
Rutherford, Estes, Watson Coleman, Payne, Keating, and 
Langevin.
    Mr. Katko. The Committee on Homeland Security, Subcommittee 
on Transportation and Protective Security and Subcommittee on 
Emergency Preparedness, Response, and Communications will come 
to order. The subcommittees are meeting today to examine the 
degree to which the Department of Homeland Security leverages 
its research and development expertise to improve the security 
architecture of our Nation's surface transportation systems. 
Specifically, the subcommittees will examine how the TSA and 
the Science and Technology Directorate collaborate to improve 
security capabilities and address identified needs.
    I now recognize myself for an opening statement.
    The free movement of goods and people depends on the 
security of our transportation networks. A substantial number 
of Americans utilize surface transportation on a daily basis, 
including over 10 billion riders annually on 6,800 U.S. mass 
transit systems.
    While TSA is responsible for securing all of America's 
transportation systems, its approaches to aviation security and 
surface transportation security are, to say the least, markedly 
different. Whereas TSA is directly involved in security 
operations at airports, the agency provides oversight and 
assistance to surface transportation modes through partnerships 
with operators as well as State and local authorities. This 
collaborative, whole-of-the-community approach helps make sure 
that resources are applied efficiently and have the highest 
efficacy in reducing risk to the Nation's transportation 
systems.
    We know that DHS provides support through security threat 
assessments, explosives detection canines--nowhere near 
enough--and security grants. However, our subcommittees hope to 
learn more today of how S&T--short for Science and Technology--
and TSA are helping to drive security technology innovation for 
the surface sector.
    This committee understands that this is a complex 
undertaking, and I hope we can help you with this critically 
important responsibility. The current threat environment facing 
surface transportation is persistent. The 2015 bombing of a 
railway station in Turkey, the 2016 metro bombing in Belgium, 
and the 2017 metro bombing in Russia demonstrate that 
terrorists continue to see surface transportation modes as soft 
targets which can yield high numbers of casualties.
    The attempted suicide bombing in the Port Authority Bus 
Terminal in New York City last month, a few blocks from where I 
was standing at the time it happened, followed a recent vehicle 
ramming attack in Manhattan that killed 8 people.
    As a Representative of New York's 24th District in 
Syracuse, I recognize the importance of securing commuter 
buses, transit agencies, freight rail, and all modes of surface 
transportation. That is why I am so pleased to be working 
together with my fellow New Yorker, Chairman Donovan, as well 
as Ranking Members Watson Coleman and Payne, whose New Jersey 
transportation systems are so closely linked to those of our 
home State of New York.
    This hearing continues the committee's efforts to 
understand the challenges facing the diverse spectrum of 
surface transportation modes as well as the bureaucratic 
hurdles that stymie the development of security technology.
    Previously, we heard from transit police and law 
enforcement personnel, surface transportation operators, and 
industry stakeholders. Their insights have helped us to 
identify obstacles that contribute to an impractical 
development time line. Security regulations, inspections, VIPR 
teams, and grants are only parts of the conversations we should 
be having on how to properly secure surface transportation.
    These initiatives must be supplemented by the deployment of 
innovative security technologies to effectively reduce risk. 
Based on your experiences and your expertise, I want to know 
what you all envision as an appropriate balance of security 
initiatives and technology in the surface transportation 
environment.
    More importantly, I want to know how DHS can lead the way 
to achieve this balance. In recent testimony, TSA Administrator 
Pekoske said, ``Although we have invested significant resources 
and implemented numerous programs and policies to reduce 
identified vulnerabilities and minimize potential consequences, 
in the current climate, vigilance and preparation can only take 
us so far.'' Truer words have not been spoken.
    While I do believe that vigilance is a critical part of 
threat mitigation, I also agree with the administrator that TSA 
must look beyond existing efforts. We need the effective 
innovation of security technologies to remain proactive against 
evolving threats.
    Today, I would like to discuss how we can expand upon DHS 
and TSA's efforts to ensure that stakeholders have the tools 
they need to properly secure surface transportation modes. 
Specifically, how could TSA and S&T better coordinate with each 
other and with surface transportation stakeholders to 
streamline the development and deployment of critical security 
technologies in surface transportation systems?
    Ms. Proctor, Mr. Pryor, Mr. Roberts, and Mr. Jenkins, thank 
you all very much for appearing before us today to testify 
about this timely and important issue. We look forward to 
hearing your testimony.
    I am pleased to recognize the Ranking Member of the 
Subcommittee on Transportation and Protective Security, the 
gentlelady from New Jersey, my friend, Mrs. Watson Coleman, for 
her opening statement.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                            January 30, 2018
    The Subcommittee on Transportation and Protective Security and the 
Subcommittee on Emergency Preparedness, Response, and Communications 
are meeting today to examine the degree to which the Department of 
Homeland Security leverages its research and development expertise to 
improve the security architecture of our Nation's surface 
transportation systems. Specifically, the subcommittees will examine 
how the Transportation Security Administration and the Science and 
Technology Directorate collaborate to improve security capabilities and 
address identified needs.
    The free movement of goods and people depends on the security of 
our transportation networks. A substantial number of Americans utilize 
surface transportation on a daily basis, including over 10 billion 
riders annually on 6,800 U.S. mass transit systems.
    While TSA is responsible for securing all of America's 
transportation systems, its approaches to aviation security and surface 
transportation security are markedly different. Whereas TSA is directly 
involved in security operations at airports, the agency provides 
oversight and assistance to surface transportation modes through 
partnerships with operators, as well as State and local authorities. 
This collaborative ``whole-of-community'' approach helps to ensure that 
resources are applied efficiently and have the highest efficacy in 
reducing risk to the Nation's transportation systems. We know that DHS 
provides support through security threat assessments, explosives 
detection canines, and security grants; however our subcommittees hope 
to learn more today of how S&T and TSA are helping to drive security 
technology innovation for the surface sector. This committee 
understands that this is a complex undertaking, and I hope we can help 
you with this critically important responsibility.
    The current threat environment facing surface transportation is 
persistent. The 2015 bombing of a railway station in Turkey, the 2016 
metro bombing in Belgium, and the 2017 metro bombing in Russia 
demonstrate that terrorists continue to see surface transportation 
modes as soft targets which can yield high numbers of casualties. The 
attempted suicide bombing in the Port Authority Bus Terminal in New 
York City last month followed a recent vehicle ramming attack in 
Manhattan that killed 8 people. As the representative of New York's 
24th District, I recognize the importance of securing commuter buses, 
transit agencies, freight rail, and all modes of surface 
transportation. That is why I am so pleased to be working together with 
my fellow New Yorker, Chairman Donovan, as well as Ranking Members 
Watson Coleman and Payne, whose New Jersey transportation systems are 
so closely linked to those in our home State of New York.
    This hearing continues the committee's efforts to understand the 
challenges facing the diverse spectrum of surface transportation modes, 
as well as the bureaucratic hurdles that stymie the development of 
security technology. Previously, we heard from transit police and law 
enforcement personnel, surface transportation operators, and industry 
stakeholders. Their insights have helped us identify obstacles that 
contribute to an impractical development time line.
    Security regulations, inspections, VIPR teams, and grants are only 
parts of the conversations we should be having on how to secure surface 
transportation. These initiatives must be supplemented by the 
deployment of innovative security technologies to effectively reduce 
risk. Based on your experiences and your expertise, I want to know what 
you all envision as an appropriate balance of security initiatives and 
technology in the surface transportation environment. More importantly, 
I want to know how DHS can lead the way to achieve this balance.
    In recent testimony, TSA Administrator Pekoske said, ``Although we 
have invested significant resources and implemented numerous programs 
and policies to reduce identified vulnerabilities and minimize 
potential consequences, in the current climate, vigilance and 
preparation can only take us so far.'' While I do believe that 
vigilance is a critical part of threat mitigation, I also agree with 
the administrator that TSA must look beyond existing efforts. We need 
the effective innovation of security technologies to remain proactive 
against evolving threats.
    Today, I would like to discuss how we can expand upon DHS and TSA's 
efforts to ensure that stakeholders have the tools they need to 
properly secure surface transportation modes. Specifically, how can TSA 
and S&T better coordinate with each other and with surface 
transportation stakeholders to streamline the development and 
deployment of critical security technologies in surface transportation 
systems?
    Ms. Proctor, Mr. Pryor, Mr. Roberts, and Mr. Jenkins, thank you for 
appearing before us today to testify about this timely and important 
issue. We look forward to hearing your testimony.

    Mr. Katko. I am pleased to recognize the Ranking Member of 
the Subcommittee on Transportation and Protective Security, the 
gentlelady from New Jersey, my friend, Mrs. Watson Coleman, for 
her opening statement.
    Mrs. Watson Coleman. Thank you, Chairman.
    I want to thank you and Chairman Donovan and Ranking Member 
Payne for convening today's hearing.
    Thank you to the panel of witnesses for testifying on this 
very important topic.
    Surface transportation systems, which include freight, 
passenger trains, commuter rail, mass transit, buses, and 
pipelines, are vital to the economy of the United States. Every 
day, millions of Americans rely on these transportation 
systems. An attack against these systems could be devastating, 
and terrorists have taken note.
    In recent years, terrorists have targeted surface 
transportation systems overseas, including attacks in London 
and Brussels. Last month, the threat to public transit systems 
hit home as a would-be suicide attacker detonated a pipe bomb 
near Times Square within the New York City subway system. 
Luckily, the bomb failed to detonate fully, and the bomber was 
the only person seriously injured.
    Nevertheless, the attack proved that the United States is 
not immune to the types of attacks we have witnessed overseas. 
The ability of lone-wolf extremists with little to no training, 
financial support, or direction to carry out attacks against 
soft targets demands increased attention and collaboration at 
all levels of government.
    Securing such complex, busy transportation systems requires 
a variety of security measures, including the development and 
employment of innovative technologies capable of detecting 
threats without creating congestion.
    To develop these new technologies, TSA has established test 
beds with many of the country's largest mass transit and 
passenger rail agencies to test promising technologies in the 
field. While these projects may prove useful, it is clear they 
do not receive the same attention the aviation technology 
developments receive.
    TSA's recent Biennial Strategic 5-Year Technology 
Investment Plan Refresh--further referred to by me as Refresh--
which lays out TSA's plans for investing in security technology 
makes no mention of these projects or of surface transportation 
at all.
    In addition, unlike in aviation, when these technology 
pilots deliver effective solutions, TSA does not purchase the 
equipment for deployment. Instead, it falls to local 
transportation authorities to pay for these technologies, and 
many of them cannot afford to do so without Federal support.
    The American Public Transit Association has testified that 
transit agencies across the United States have identified $6 
billion in capital and operational security requirements. We 
are currently awaiting the President's fiscal year 2019 budget 
request, but I would note that, in the face of this massive 
need and the frightening threat picture, the President's 
proposed budget for fiscal year 2018 suggests cutting that 
little Federal support that exists for surface transportation 
security. The President wants to cut the Transit Security Grant 
Program, the primary source of Federal security funds for most 
transit agencies, from $88 million to just $48 million. He 
wants to cut the TSA's Visible Intermodal Prevention and 
Response Programs, VIPR, which deploys TSA personnel to conduct 
security operations at transportation venues from 31 teams to 
just 8.
    These cuts are reckless. We cannot allow this 
administration to turn a blind eye to the threats facing our 
surface transportation systems.
    That is why I have introduced the Surface Transportation 
and Public Area Security Act of 2017, which would restore and 
resource those important activities as well as provide a 
comprehensive approach to boosting Federal programs aimed at 
securing these vital systems. Crucially, my bill would 
authorize $400 million for the Transit Security Grant Program, 
which would provide a small but significant step in addressing 
the $16 billion gap in security needs.
    That funding would allow transit agencies to purchase some 
of the innovative technologies our witnesses will discuss 
today. Additionally, my bill would direct TSA's Innovation Task 
Force to expand its work beyond aviation security and seek 
technologies with potential to enhance surface transportation 
security, providing another avenue for testing new 
technologies.
    My bill would also direct DHS to report to Congress on 
emerging security technologies within the surface 
transportation mode, a necessity since such technologies were 
left out of TSA's recent report. It is time that we finally 
give surface transportation security the attention it requires, 
and I look forward to hearing from our witnesses about the 
challenges they face and how we can be helpful.
    Again, I thank my Chairman for convening this hearing, and 
I yield back the balance of my time.
    [The statement of Mrs. Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                            January 30, 2018
    Surface transportation systems, which include freight and passenger 
trains, commuter rail, mass transit, buses, and pipelines, are vital to 
the economy of the United States. Every day, millions of Americans rely 
on these transportation systems. An attack against these systems could 
be devastating--and terrorists have taken note.
    In recent years, terrorists have targeted surface transportation 
systems overseas, including attacks in London and Brussels. Last month, 
the threat to public transit systems hit home, as a would-be suicide 
attacker detonated a pipe bomb near Times Square, within the New York 
City subway system. Luckily, the bomb failed to detonate fully, and the 
bomber was the only person seriously injured.
    Nevertheless, the attack proved that the United States is not 
immune to the types of attacks we have witnessed overseas. The ability 
of ``lone-wolf'' extremists with little to no training, financial 
support, or direction to carry out attacks against soft targets demands 
increased attention and collaboration at all levels of government.
    Securing such complex, busy transportation systems requires a 
variety of security measures, including the development and deployment 
of innovative technologies capable of detecting threats without 
creating congestion.
    To develop new technologies, TSA has established ``test beds'' with 
many of the country's largest mass transit and passenger rail agencies 
to test promising technologies in the field.
    While these projects may prove useful, it is clear they do not 
receive the same attention that aviation technology development 
receives. TSA's recent ``Biennial Strategic Five-Year Technology 
Investment Plan Refresh,'' which lays out TSA's plans for investing in 
security technology, makes no mention of these project--or of surface 
transportation at all.
    In addition, unlike in aviation, when these technology pilots 
deliver effective solutions, TSA does not purchase the equipment for 
deployment. Instead, it falls to local transportation authorities to 
pay for these technologies, and many of them cannot afford to do so 
without Federal support. The American Public Transit Association has 
testified that transit agencies across the United States have 
identified $6 billion in capital and operational security requirements.
    We are currently awaiting the President's fiscal year 2019 budget 
request, but I would note that, in the face of this massive need and a 
frightening threat picture, the President's proposed budget for fiscal 
year 2018 suggests cutting what little Federal support exists for 
surface transportation security.
    The President wants to cut the Transit Security Grant Program--the 
primary source of Federal security funds for most transit agencies--
from $88 million to just $48 million. He wants to cut TSA's Visible 
Intermodal Prevention and Response (VIPR) program--which deploys TSA 
personnel to conduct security operations at transportation venues--from 
31 teams to just 8. These cuts are reckless. We cannot allow this 
administration to turn a blind eye to the threats facing our surface 
transportation systems.
    That is why I have introduced the Surface Transportation and Public 
Area Security Act of 2017, which would restore and resource these 
important activities, as well as provide a comprehensive approach to 
boosting Federal programs aimed at securing these vital systems.
    Crucially, my bill would authorize $400 million for the Transit 
Security Grant Program, which would provide a small but significant 
step in addressing the $6 billion gap in security needs. That funding 
would allow transit agencies to purchase some of the innovative 
technologies our witnesses will discuss today.
    Additionally, my bill would direct TSA's Innovation Task Force to 
expand its work beyond aviation security and seek technologies with 
potential to enhance surface transportation security, providing another 
avenue for testing new technologies. My bill would also direct DHS to 
report to Congress on emerging security technologies within the surface 
transportation mode--a necessity since such technologies were left out 
of TSA's recent report.
    It is time that we finally give surface transportation security the 
attention it requires.

    Mr. Katko. Thank you, Mrs. Watson Coleman.
    I now recognize the Chairman of the Subcommittee on 
Emergency Preparedness, Response, and Communications, my friend 
Mr. Donovan, for an opening statement.
    Mr. Donovan. Thank you, Mr. Chairman, and thank you for 
convening our subcommittees together for this very important 
hearing.
    Surface transportation systems serve over 10 billion riders 
annually. Like me--because I am one of those riders; I take 
Amtrak back and forth from New York City to Washington every 
week--these people depend on the reliability and safety of this 
critical infrastructure and so does our economy. The open 
systems, multiple hubs, and lack of screening has made surface 
transportation systems a target for terrorist organizations and 
their sympathizers for years.
    We have seen attacks in Brussels, London, and, most 
recently, in New York City. Last December, one such terrorist 
tried to detonate a suicide bomb in a walkway underneath the 
Port Authority Bus Terminal during rush hour. Thankfully, he 
constructed a faulty IED. However, this attempted terrorist 
attack is a stark reminder of how vulnerable our surface 
transportation systems are to terrorist attacks.
    Surface transportation system operators are continuously 
looking for innovative technology to help create a multi-layer 
approach to security. However, this search for technology 
solutions has been bogged down by numerous obstacles. That is 
why both of our subcommittees have been extensively looking at 
how technology can help make our surface transportation systems 
more secure without impeding their operations.
    Last November, our subcommittees held a roundtable with 
surface transportation system operators and heard some of the 
challenges that they face when trying to integrate new 
technology into their systems. Specifically, technology that is 
deemed to be successful in a lab doesn't always work once it is 
integrated into a mass transit system. Thus, there needs to be 
a test bed and pilot locations to adequately test new 
technology. There is a need for a technology clearinghouse 
where operators can review impartial assessments of the 
technology that is available to them.
    Now it is time for us to hear from the Department of 
Homeland Security, specifically TSA and S&T, on how they are 
helping surface transportation operators with research and 
development, test and evaluation, and other issues surrounding 
new technology. I am interested in learning more about how S&T 
and TSA are working together to ensure our surface 
transportation operators have the tools and resources they need 
to keep the riders safe, specifically with regard to 
technology.
    I want to also thank our witnesses for their time, their 
expertise, and what they are doing for our riders on a daily 
basis, and for this afternoon for being here to share your 
expertise with us. I look forward to our discussion.
    With that, Mr. Chairman, I yield back.
    [The statement of Chairman Donovan follows:]
              Statement of Chairman Daniel M. Donovan, Jr.
                            January 30, 2018
    Surface transportation systems serve over 10 billion riders 
annually. Like me--I am one of those 10 billion riders--these people 
depend on the reliability and safety of this critical infrastructure, 
and so does our economy.
    The open systems, multiple hubs, and lack of screening has made 
surface transportation systems a target for terrorist organizations and 
their sympathizers for years. We have seen attacks in Brussels, London, 
and most recently in New York City.
    Last December, Akayed Ullah tried to detonate a suicide bomb in a 
walkway underneath the Port Authority Bus Terminal during rush hour. 
Thankfully, he constructed a faulty IED. However, this attempted 
terrorist attack is a stark reminder of how vulnerable our surface 
transportation systems are to terrorist attacks.
    Surface transportation system operators are continuously looking 
for innovative technology to help create a multi-layer approach to 
security. However, this search for technological solutions has been 
bogged down by numerous obstacles.
    That is why both of our subcommittees have been extensively looking 
at how technology can help make our surface transportation systems more 
secure, without impeding their operations.
    Last November, our subcommittees held a roundtable with surface 
transportation system operators and heard some of the challenges they 
face when trying to integrate new technology into their systems. 
Specifically,
  <bullet> Technology that is deemed successful in a lab doesn't always 
        work once integrated into a mass transit system. Thus, there is 
        a need for test beds and pilot locations to adequately test 
        this technology. And,
  <bullet> There is a need for a technology clearinghouse where 
        operators can review impartial assessments of the technology 
        available to them.
    Now, it is time for us to hear from the Department of Homeland 
Security, specifically TSA and S&T, on how they are helping surface 
transportation operators with research and development, test and 
evaluation, and other issues surrounding new technology. I'm interested 
in learning more about how S&T and TSA are working together to ensure 
our surface transportation operators have the tools and resources they 
need to keep the riders safe, specifically with regard to technology.
    I want to thank the witnesses for being here this afternoon and I 
look forward to our discussion.

    Mr. Katko. Thank you, Mr. Donovan. I am very pleased that 
our two subcommittees are working together to address this very 
important issue.
    Before I introduce the next chair of the subcommittee, I 
want to just caution all the witnesses here, the way the votes 
are lining up, we may have to truncate this hearing a little 
bit. So, for the next few minutes, perhaps you can think in 
your mind how to shorten your opening statements as best you 
can so we can have more times for questions.
    With that, I will now recognize the Ranking Member of the 
Subcommittee on Emergency Preparedness, Response, and 
Communications, Mr. Payne, for an opening statement.
    Mr. Payne. Thank you, and good afternoon. I would like to 
thank Chairman Katko and Donovan, as well as Ranking Member 
Watson Coleman, for holding today's hearing to assess the 
Department of Homeland Security's efforts to develop and 
identify novel surface transportation security technologies.
    I represent Newark and Jersey City, which are two of the 
largest cities in the State of New Jersey. Every day, my 
constituents rely on New Jersey Transit, the PATH train, and 
Amtrak trains to commute within the tri-State area.
    Two years ago, following a horrific attack on the Brussels 
metro system, I was pleased that my subcommittee held a field 
hearing in my district to learn more about how the Federal 
Government could help prevent a similar incident from happening 
in the busiest surface transportation corridors in the country. 
At the hearing, we also considered how first responders 
coordinate with transit owners and operators to ensure we are 
prepared if, God forbid, such an attack did occur.
    We brought together representatives from the Transportation 
Security Administration, the Port Authority of New York and New 
Jersey, New Jersey Transit, New York City's Metropolitan 
Transportation Authority, and Amtrak and had a robust 
discussion. There were two major takeaways.
    The vast majority of TSA's resources support securing 
aviation travel. So the preliminary responsibility for securing 
surface transportation infrastructure falls on owners and 
operators. Owners and operators rely on the DHS Transit 
Security Grant Program funding to install and maintain 
technology and security operations to keep transit systems 
secure without jeopardizing passenger flow.
    These findings were reiterated at the field hearing held in 
Mrs. Watson Coleman's district late last year. As Ranking 
Member of the Emergency Preparedness Subcommittee, I have 
fought for the TSGP funding and to ensure that the Department's 
research and development efforts are responsive to the threat 
environment and needs of transit owners and operators.
    So, when the President released his fiscal year 2018 budget 
last year, I was troubled to see that he proposed slashing TSGP 
grants funding by 52 percent. On top of that, the President's 
budget proposed to gut the Urban Area Security Initiatives and 
the State Homeland Security Grant Program by over $270 million. 
DHS's suite of grant programs work in concert to make high-risk 
targets, like our surface transit systems, more secure. 
Attempts to cut them in this threat environment reflect a 
genuine disconnect from reality.
    As we anticipate the fiscal year 2019 budget proposal, I 
hope the administration has come to its senses and will request 
more adequate funding for these important programs. Moreover, I 
hope that Congress enacts a full year spending bill for fiscal 
year 2018 so the grant funds are made available to our 
communities to make surface transportation more secure.
    Before I close, I would like to acknowledge that the 
President's fiscal year 2018 budget also made dramatic cuts to 
the Science and Technology Directorate. Although much of S&T 
transportation work was not affected, other programs that could 
complement its surface transportation efforts were. I implore 
the administration to submit a responsible budget that 
recognizes the connectivity between various important S&T 
research programs.
    In the mean time, I will continue to support H.R. 4474, 
Mrs. Watson Coleman's Surface Transportation and Public Area 
Security Act, which addresses pressing transportation security 
gaps, and I urge my colleagues to do the same.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                            January 30, 2018
    I represent Newark and Jersey City, which are two of the largest 
cities in the State of New Jersey. Every day, my constituents rely on 
New Jersey Transit, PATH, and Amtrak trains to commute within the tri-
State area.
    Two years ago, following a horrific attack on the Brussels metro 
system, I was pleased that my subcommittee held a field hearing in my 
district to learn more about how the Federal Government could help 
prevent a similar incident from happening in the busiest surface 
transportation corridors in the country. At the hearing, we also 
considered how first responders coordinate with transit owners and 
operators to ensure we are prepared if--God forbid--such an attack did 
occur. We brought together representatives from the Transportation 
Security Administration, the Port Authority of New York and New Jersey, 
New Jersey Transit, New York City's Metropolitan Transportation 
Authority, and Amtrak, and had a robust discussion.
    There were two major takeaways. The vast majority of TSA's 
resources support securing aviation travel, so the primary 
responsibility for securing surface transportation infrastructure falls 
on owners and operators. Owners and operators rely on the DHS Transit 
Security Grant Program (TSGP) funding to install and maintain 
technology and security operations that keep transit systems secure 
without jeopardizing passenger flow. These findings were reiterated at 
the field hearing held in Ms. Watson Coleman's district late last year.
    As Ranking Member of the Emergency Preparedness Subcommittee, I 
have fought for TSGP funding and to ensure that the Department's 
research and development efforts are responsive to the threat 
environment and needs of transit owners and operators.
    So when the President released his fiscal year 2018 budget last 
year, I was troubled to see that he proposed slashing TSGP grant 
funding by 52 percent. On top of that, the President's budget proposed 
to gut the Urban Area Security Initiative and the State Homeland 
Security Grant Program by over $270 million.
    DHS's suite of grant programs work in concert to make high-risk 
targets--like our surface transit systems--more secure. Attempts to cut 
them in this threat environment reflect a genuine disconnect from 
reality. As we anticipate the fiscal year 2018 budget proposal, I hope 
the administration has come to its senses and will request more 
adequate funding for these important programs.
    Moreover, I hope that Congress enacts a full year spending bill for 
fiscal year 2019 so that grant funds are made available to our 
communities to make surface transportation more secure.
    Before I close, I would like to acknowledge that the President's 
fiscal year 2018 budget also made dramatic cuts to the Science and 
Technology Directorate. Although much of S&T's transportation work was 
not affected, other programs that could complement its surface 
transportation efforts were. I implore the administration to submit a 
responsible budget that recognizes the connectivity between various 
important S&T research programs.
    In the mean time, I will continue to support H.R. 4474, Ms. Watson 
Coleman's Surface Transportation and Public Area Security Act, which 
addresses pressing transit security gaps, and I urge my colleagues to 
do the same.

    Mr. Katko. Thank you, Mr. Payne.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            January 30, 2018
    When it comes to transportation security, aviation security 
dominates the conversation throughout the Government, but given the 
diversity of today's terrorist landscape, it is well past time for the 
conversation to expand.
    We all well know that in recent years, surface transportation 
systems both overseas and at home have increasingly been a target of 
lethal mass casualty attacks.
    Last October, a terrorist in Manhattan ran a vehicle onto a bike 
bath killing 8 people and injuring 11.
    Just last month, a terrorist strapped a home-made explosive device 
onto his body and detonated it in the New York City's subway. While the 
blast was not powerful enough to kill, 4 innocent commuters sustained 
injuries.
    These recent cases indicate that, in the age of lone-wolf and 
small-cell attacks, the targeting of mass transit and other surface 
transportation centers is growing.
    Further, surface transportation systems in Madrid, London, Paris, 
and Brussels have all been targeted by terrorists.
    Therefore, there is no sensible justification for surface 
transportation security to garner only 2 percent of the Transportation 
Security Administration's budget.
    Additionally, it is incumbent upon Congress to re-examine TSA's 
budget allocations for surface transportation security. It is our job 
to make sure that DHS is positioned to address this emerging terrorist 
threat.
    I want to thank Ranking Member Watson Coleman for her leadership on 
surface transportation security. Her legislation, the Surface 
Transportation and Public Area Security Act of 2017, would restore, 
revamp, and resource important programs vital to protecting our 
Nation's surface transportation systems.
    I hope today's conversation will focus on how DHS can do more to 
partner with stakeholders to make these systems more secure and 
resilient.
    As we have seen with aviation sector, the introduction of 
innovative technological solutions is essential to strengthening the 
security of surface transportation.
    To our witnesses, if there is technology on the cusp of development 
that needs research and development funding from Congress, let us know, 
we want to be helpful. If there are authorities that DHS needs to 
address surface transportation threats, tell us.
    To my colleagues, I know we are expecting to see the fiscal year 
2019 budget proposal from the Trump administration in the coming weeks.
    If you recall, the President Trump's fiscal year 2018 budget 
proposed cutting $43 million in surface transportation security. In the 
event that the forthcoming budget proposes similar cuts to surface 
transportation, I hope you will join me in opposing such cuts.
    As evidenced by the testimony and participation in today's hearing, 
now is not the time to make drastic, unjustified, and illogical cuts to 
our security. I look forward to engaging with both the witnesses and my 
colleagues on surface transportation security, not only here today, but 
also in the future.

    Mr. Katko. We are grateful to have before us this afternoon 
a distinguished panel here to testify. Let me remind each of 
the witnesses, as I have alluded to, that we are under a time 
crunch, No. 1; and, No. 2, their entire written statement will 
appear in the record.
    Our first witness, Ms. Sonya Proctor, serves as a deputy of 
the surface division--I am sorry--the director of the Surface 
Division within the Transportation Security Administration's 
Office of Security Policy and Industry Engagement. In this 
role, she is responsible for developing risk-based security 
policy in conjunction with stakeholders for surface 
transportation modes.
    Prior to this position, Ms. Proctor served as a deputy 
federal secretary--security director at Ronald Reagan National 
Airport in Washington, DC. Ms. Proctor has a long tenure of law 
enforcement service, beginning with the Washington, DC, 
Metropolitan Police Department. Ms. Proctor went on to serve as 
a chief of police for the National Amtrak Police Department, 
developing a new strategic plan to city policing and a 
passenger railroad environment.
    Ms. Proctor, thank you very much for your service and for 
your continuing service to our country and in your current 
role. I now recognize Ms. Proctor for her opening statement.

STATEMENT OF SONYA PROCTOR, DIRECTOR, SURFACE DIVISION, OFFICE 
  OF SECURITY POLICY AND INDUSTRY ENGAGEMENT, TRANSPORTATION 
 SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Proctor. Thank you. Good afternoon, Chairman Katko, 
Chairman Donovan, Ranking Member Watson Coleman, Ranking Member 
Payne, and distinguished Members of the subcommittees. Thank 
you for the opportunity to testify today about TSA's role in 
surface transportation security technology.
    TSA appreciates the continued support of this committee and 
its Members as we carry out our vital security mission. We are 
grateful for the constructive relationship TSA enjoys with this 
committee and look forward to our continued work together to 
ensure the security of our Nation's transportation systems.
    As the director for the Surface Division within TSA's 
Office of Security Policy and Industry Engagement, I have the 
responsibility for overseeing the development of risk-based 
surface transportation security policies in collaboration with 
industry operators and other Federal agencies to develop and 
implement those policies.
    To illustrate the magnitude and importance of the surface 
transportation system, which is moving people and commodities 
on a continuous basis, consider that over 11 million passengers 
daily travel on New York MTA system alone. Every year, more 
than 10 billion trips are taken on 6,800 U.S. mass transit 
systems, which range from very small bus-only systems in rural 
areas to very large multimodal systems like the New York MTA in 
major cities. Almost 4,000 commercial bus companies travel on 
the 4 million miles of roadway in the United States and on more 
than 600,000 highway bridges and through 350 tunnels. Those 
same roads, bridges, and tunnels support the movement of goods 
throughout the country by 8 million large-capacity commercial 
trucks. As for our railroads and pipelines, more than 500 
individual freight railroads carry essential goods operating on 
nearly 140,000 miles of track, and 2.5 million miles of 
pipelines owned and operated by approximately 3,000 private 
companies transport natural gas, refined petroleum products, 
and other commercial products.
    When assessing risk in any particular transportation mode, 
TSA considers the threat, the vulnerability, and the 
consequence should an incident occur. TSA takes the threat to 
surface transportation mode very seriously.
    Recent terror attacks and plots, like the attempted suicide 
bombing in the New York City Port Authority Bus Terminal and 
the vehicle ramming attack in Manhattan, serve as compelling 
reminders of the vast challenges of securing a system of 
systems that is designed to quickly move massive volumes of 
passengers and commodities.
    Unlike aviation, where TSA is heavily involved in executing 
day-to-day security operations, our approach for surface 
transportation security is different. It is one focused on 
supporting, collaborating, and partnering with the owners and 
operators of the systems. The interconnected varied and 
expansive scope of the surface transportation system creates 
unique security challenges that are best addressed by system 
owners and operators and Federally supported through 
stakeholder communication, coordination, and collaboration.
    To that end, TSA focuses its efforts on system assessments, 
voluntary operator compliance with industry standards, 
collaborative law enforcement and security operations, accurate 
and timely exchange of intelligence information, regulatory 
oversight, and technology expertise. My colleague, Robert 
Pryor, who is director for TSA's Intermodal Division within the 
Office of Requirements and Capabilities Analysis will further 
explain through his testimony the work TSA does to assist 
surface owners and operators identify vulnerabilities and risks 
in their operations and the role TSA plays in that process.
    Again, thank you for the opportunity to be here today. I am 
happy to answer any questions you may have.
    [The joint prepared statement of Ms. Proctor and Mr. Pryor 
follows:]
       Joint Prepared Statement of Sonya Proctor and Robert Pryor
                            January 30, 2018
    Good morning Chairmen Katko and Donovan, Ranking Members Watson 
Coleman and Payne, and distinguished Members of the subcommittees. We 
are grateful for the opportunity to appear before you to discuss the 
Transportation Security Administration's (TSA) efforts regarding 
surface transportation security and technology initiatives. Today's 
hearing is timely, as technology deployment for both aviation and 
surface transportation systems will be critical to TSA's success in 
2018 and beyond.
    TSA appreciates the continued support of this committee and its 
Members, as we carry out our vital security mission. We are grateful 
for the constructive relationship TSA enjoys with this committee, and 
look forward to our continued work together to ensure the security of 
our Nation's transportation systems.
    The U.S. surface transportation system, which is comprised of 
roads, bridges, tunnels, mass transit systems, passenger and freight 
railroads, over-the-road bus operators, motor carrier operators, 
pipelines, and maritime facilities, is an extremely complex, 
interconnected, and largely open network. The various transportation 
modes within this system operate daily in close coordination with and 
proximity to one another. In fact, many of the modes use the same 
roads, bridges, and tunnels to function. Americans and our economy need 
and depend on the surface transportation system to operate securely and 
safely.
    To illustrate the magnitude and importance of the system, which is 
moving people and commodities on an essentially continuous basis, 
consider that over 11 million passengers daily travel on the New York 
Metropolitan Transportation Authority (NY MTA) system alone. Every year 
more than 10 billion trips are taken on 6,800 U.S. mass transit 
systems, which range from very small bus-only systems in rural areas to 
very large multi-modal systems, like the NY MTA, in major cities. Over-
the-road bus operators carry approximately 750 million intercity bus 
passengers each year. Almost 4,000 commercial bus companies travel on 
the 4 million miles of roadway in the United States and on more than 
600,000 highway bridges greater than 20 feet in length and through 350 
tunnels greater than 300 feet in length. Those same roads, bridges, and 
tunnels support the movement of goods throughout the country by 8 
million large capacity commercial trucks. As for our railroads and 
pipelines, more than 500 individual freight railroads carrying 
essential goods operate on nearly 140,000 miles of track, and 2.5 
million miles of pipelines, owned and operated by approximately 3,000 
private companies, transport natural gas, refined petroleum products, 
and other commercial products.
    As these facts demonstrate, securing surface transportation is both 
a critically important and complex undertaking. Recent terror attacks 
and plots--like the attempted suicide bombing in the New York City Port 
Authority Bus Terminal and vehicle ramming attack in Manhattan, serve 
as compelling reminders of the vast challenges of securing a ``system 
of systems'' that is designed to quickly move massive volumes of 
passengers and commodities.
    When assessing risk in any particular transportation mode, TSA 
considers the threat, the vulnerability, and the consequence, should an 
incident occur. TSA takes the threat to the surface mode very 
seriously. Although we have invested significant resources and 
implemented numerous programs and policies to reduce identified 
vulnerabilities and minimize potential consequences, in the current 
climate, vigilance and preparation can only take us so far. For this 
reason, TSA is reexamining its approaches and actively assessing how 
best to leverage and enhance its surface expertise to strengthen our 
partnership with surface stakeholders.
    Unlike aviation, where TSA has been heavily involved in day-to-day 
security operations since the agency was created in 2001, we have 
primarily approached surface transportation security as a partnership 
with the owners and operators of the system. This difference in 
approach is reflective of the characteristics of the system. The 
interconnected, varied, and expansive scope of the surface 
transportation system creates unique security challenges that are best 
addressed by system owners and operators and Federally supported 
through stakeholder communication, coordination, and collaboration. To 
best assist surface transportation owners and operators with their 
security needs, TSA focuses its efforts on system assessments, 
voluntary operator compliance with industry standards, collaborative 
law enforcement and security operations, accurate and timely exchange 
of intelligence information, regulatory oversight, and technology 
expertise.
    TSA invests its resources to help surface owner and operators 
identify vulnerabilities and risks in their operations, and then works 
with them to develop and implement risk-mitigating solutions to address 
them. The inherently open and expansive scope of surface passenger 
transportation and the evolving threat to it requires TSA to continue 
researching and developing innovative processes and technologies to 
increase security without creating undesired financial or operational 
burdens. Engagement and partnership with surface transportation owners 
and operators is the key to fostering innovation and ensuring the 
system is secure both today and in the future.
    TSA incorporates the needs and capability gaps of surface 
transportation owners and operators into our work to influence and 
stimulate the development of new security technologies in the 
marketplace. Our approach is designed to make more readily available 
innovative and advanced technologies useful for public area security. 
TSA actively follows the fast-moving advancement of security 
technologies to assess whether emerging technologies, including from 
outside the transportation environment, could be applied to address 
current and evolving threats to the surface transportation system.
    TSA accomplishes this goal through its Intermodal Division by 
working closely with surface transportation owners and operators to 
introduce new technology and approaches to securing surface 
transportation. We establish collaborative operational test beds for 
different modes of transportation (mass transit, highway motor carrier, 
pipeline, and freight rail), and critical infrastructure protection 
security technology projects to address the increasing threat 
demonstrated from attacks world-wide. TSA's Intermodal Division's 
Surface program was established in 2004 following the Madrid and London 
attacks and has been fostering ``innovation'' within the surface 
transportation system for more than a dozen years. Working in 
conjunction with the U.S. Department of Homeland Security (DHS) Science 
and Technology Directorate (S&T), TSA's Intermodal Division provides 
security technology recommendations and solutions for surface and 
aviation transportation venues by evaluating existing security 
technologies and developing requirements for new technologies. The 
Division's mission areas reflect provisions in the Implementing 
Recommendations of the 9/11 Commission Act of 2007 and other public 
laws, Executive Orders, and National policies and plans.
    Since its creation, the Intermodal Division has stimulated the 
marketplace and assessed numerous technologies, ranging from those 
effective and suitable for person-borne threats to technology that 
protects critical infrastructure, to detection of chemical and 
biological threats. TSA is also a National leader in providing analysis 
tools and mitigation means for explosive blast in passenger rail 
vehicles.
    TSA's surface security technology program has progressed as threats 
and risk have grown, with the expectation that threats overseas would 
eventually manifest in the United States. Our efforts have included 
short-term technology demonstrations in venues such as the Port 
Authority of New York and New Jersey's PATH system and the Manhattan 
Bus Terminal, Amtrak, Staten Island Ferry terminals, NY Mass Transit 
Authority infrastructure, ferry terminals in Long Island and Cape May, 
hazardous materials pipeline cybersecurity vulnerability assessments 
and mitigation recommendations, and infrastructure protection work in 
the Newark and Jersey City areas.
    TSA has formal agreements with leading and higher-risk surface 
venues to serve as test beds for promising technology. New Jersey 
Transit Police was TSA's first test bed partner over 10 years ago and 
continues to work with us on assessing various technologies to address 
their security needs. In fact, TSA currently has on-going test beds 
with 5 of the 10 highest-risk mass transit and passenger rail venues, 
and agreements in principle from NY MTA and Port Authority for the 
World Trade Center Oculus. We also have agreements in principle with 
Los Angeles World Airports Authority and Burbank Airport to serve as 
public area security testbed partners. The results of that public area 
security technology testing will support potential use in both surface 
and aviation venues. Finally, TSA has formal agreements with several 
freight railroads for technology to protect key rail infrastructure 
such as bridges, high-risk rail lines in urban areas, and rail yards, 
as well as with the Nation's largest hazardous materials pipeline 
operator.
    For example, TSA is presently working with New Jersey Transit, 
Washington Metropolitan Transit Authority, Amtrak, and Los Angeles 
Metro to assess the effectiveness of technologies designed to address 
threats associated with person- and vehicle-borne improvised explosive 
devices. Through such efforts, as well as intelligence, information 
sharing, and active engagement with surface owners and operators, TSA 
helps technology manufacturers develop their products to better meet 
the security needs of the surface transportation system, and serves as 
the technology surrogate for the many smaller transportation 
authorities that cannot afford or support expensive technology 
development and assessments. As a result of TSA's security technology 
support efforts, surface owners and operators can make informed 
decisions about funding and acquiring security technologies to meet 
their operational needs.
    TSA and DHS S&T are long-term and close collaborators. We have a 
clear understanding of each other's roles and missions and take great 
care to optimize our work together. DHS S&T specializes in longer-term 
research and development (R&D) and proof of concept technologies while 
TSA engages the marketplace for technologies that are more mature. In 
most cases, TSA is considering pre-production prototypes that can 
immediately benefit from operational user feedback and stimulus to 
enter the marketplace more rapidly. As needed, TSA makes its test beds 
available to DHS S&T for early user impressions of emergent R&D 
technology and design recommendations.
    TSA is committed to securing the Nation's surface transportation 
system from terrorist activities and attacks. Chairmen Katko and 
Donovan, Ranking Members Watson Coleman and Payne, and distinguished 
Members of the subcommittees, thank you for the opportunity to testify 
before you today. We are honored to serve in this capacity and look 
forward to your questions.

    Mr. Katko. Thank you, Ms. Proctor.
    Our second witness, Mr. Robert Pryor, is assigned to the 
Office of Operational Requirements and Capabilities Analysis at 
the TSA as a director of the Intermodal Division.
    The Intermodal Division supports requirements, development, 
and field and laboratory assessments of security technologies 
for all TSA mission areas, except civil aviation passenger 
screening. Mr. Pryor is a former Marine officer, and has Active 
Duty experience, including a variety of fleet maritime force 
command and specialized counterterrorism assignments.
    Sir, thank you for your service to our country and your 
dedication to our country as well. The Chair now recognizes the 
Mr. Pryor for his opening statement.

   STATEMENT OF ROBERT PRYOR, DIRECTOR, INTERMODAL DIVISION, 
       OFFICE OF REQUIREMENTS AND CAPABILITIES ANALYSIS, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Pryor. Good afternoon, Chairman Katko and Chairman 
Donovan, Ranking Member Watson Coleman, Ranking Member Payne, 
and distinguished Members of the Committee of Homeland 
Security.
    Mr. Katko, congratulations on your son's graduation. That 
is a notable achievement. I have spent a little time in Fort 
Benning, and it is not easy.
    Mr. Katko. It is quite an adventure for him, I got to tell 
you. He is going to go to ranger school in June as well, so 
that will be even more of an adventure.
    Mr. Pryor. Yes, sir, absolutely. Thank you for the 
opportunity to appear before you to discuss surface 
transportation technology initiatives that TSA is working on to 
assist surface transportation owners and operators protecting 
our transportation system.
    Since its creation in 2004, following the Madrid and London 
attacks, the Intermodal Division has stimulated the marketplace 
and assessed numerous technologies, ranging from those 
effective and suitable for person-borne threats to technology 
that protects critical infrastructure to detection of chemical 
and biological threats. TSA is also a national leader in 
providing analysis tools and mitigation means for explosive 
blast and passenger rail vehicles.
    TSA continuously researches and develops innovative 
processes and technologies to increase security without 
creating undesired financial or operational burdens. We are all 
aware that mass transit, in particular, riders are particularly 
sensitive to fare increases, and we keep that in mind.
    First, TSA helps surface owners and operators identify 
vulnerabilities and risks in their operations and then works 
with them to develop and implement risk-mitigating solutions to 
address the vulnerabilities.
    Next, TSA incorporates the needs and capability gaps of 
surface transportation owners and operators into our work to 
influence and stimulate the development of new security 
technologies in the marketplace.
    TSA actively follows the advancement of security 
technologies to assess whether emerging technologies, including 
from outside the transportation environment, could be applied 
to address current and evolving threats.
    Third, and to that end, TSA's Intermodal Division works 
closely with transportation stakeholders to introduce new 
technologies and approaches to securing transportation. We 
establish collaborative operational test beds for different 
modes of transportation and critical infrastructure protection 
security technologies to address the incoming threat 
demonstrated from attacks world-wide.
    TSA currently has on-going test beds with 5 of the 10 
highest-risk mass transit and passenger rail venues and is now 
also working with additional public area security partners.
    TSA also has formal agreements with several freight 
railroads for technology to protect key rail infrastructure, 
such as bridges, high-risk rail lines in urban areas and rail 
yards, as well as with the Nation's largest hazardous material 
pipeline operator.
    TSA shares the results of its testing with all of the 
stakeholders and also technology manufacturers to assist them 
in improving their products. We also serve as the technology 
surrogate for many smaller transportation authorities that 
cannot afford or support expensive technology development 
assessment.
    As a result of TSA's security technology support efforts, 
owners and operators can make more informed decisions about 
funding and acquiring security technologies to meet their 
operational needs.
    Thank you very much for the opportunity to testify before 
you today. I am honored to be here and look forward to your 
questions.
    Mr. Katko. Thank you, Mr. Pryor.
    Our third witness, Mr. Donald Roberts, serves as a program 
manager for the Surface Transportation Explosive Threat 
Detection Program for the Explosives Division within the 
Homeland Security Advanced Research Projects Agency, Science 
and Technology Directorate.
    Mr. Roberts has been with the DHS since 2006. He came there 
with over 18 years of experience with the Department of 
Defense, where he managed advanced research development test 
and evaluation programs. The Chair now recognizes Mr. Roberts 
for his opening statement.

  STATEMENT OF DONALD E. ROBERTS, PROGRAM MANAGER, EXPLOSIVE 
   THREAT DETECTION, EXPLOSIVES DIVISION, HOMELAND SECURITY 
   ADVANCED RESEARCH PROJECTS AGENCY, SCIENCE AND TECHNOLOGY 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roberts. Thank you. Chairmen Katko and Donovan, Ranking 
Members Payne, Watson Coleman, and distinguished Members of the 
subcommittees, thank you for the opportunity to discuss 
Department of Homeland Security Science and Technology 
Directorate's work in assisting surface transportation 
agencies, as well as how S&T works collaboratively with the 
Transportation Security Administration in this area.
    S&T, Science and Technology, Explosives Division enjoys a 
close working relationship with TSA's Intermodal Division, the 
Office of Security Policy and Industry Engagement, and with 
public and private-sector partners to address security gaps in 
the Nation's transportation network.
    The unique challenges of this open system with no fixed 
checkpoints, extremely high passenger throughput, the need to 
maintain traveler privacy, and physical safety of both the 
traveling public and system operators, as well as an 
unalterable existing infrastructure within which technologies 
for threat detection must fit necessitates a dedicated program 
focused specifically on this significant capability gap.
    The S&T Surface Transportation Program goal is to develop a 
layered detection system consisting of a suite of sensors 
capable of identifying person-borne threat items with a high 
probability of detection and a low probability of false alarm, 
providing a curb-to-platform layered threat detection system.
    We are also advancing the state-of-the-art of intelligent 
video and video analytics tools to improve detection of leave-
behind bags and quickly highlighting the surrounding 
circumstances of how the bag was left to provide actionable 
situational awareness of a potential threat. These tools are 
currently in use at the Washington Metropolitan Area Transit 
Authority Security Operation Center here in the District of 
Columbia, and we are planning to transition the capability to a 
broader Nation-wide end-user community through a commercial 
partnership by 2019.
    In addition to electronic technology solutions, DHS Science 
and Technology Detection Canine Program has also undertaken an 
effort to focus on the person-borne improvised explosive, or 
PBIED, detection canine. Canines are the most versatile mobile 
detections tools we have to protect the homeland today, and 
S&T's PBIED canine initiative was created to assess strengths 
and limits of canines specially trained to detect threats being 
carried by people either on their persons or in bags in mass 
transit and large crowd event venues.
    This type of parametric study and testing had not 
previously been undertaken in the global detection canine 
community. S&T has taken the lead to conduct this type of 
parametric study, which is critical to understanding the limits 
of performance for the canine detection teams in these types of 
search applications.
    Chairman Donovan, Katko, Ranking Members Payne and Watson 
Coleman, distinguished Members of the committee, thank you 
again for your attention to this important mission and for the 
opportunity to discuss S&T support to TSA and the surface 
transportation agencies.
    [The prepared statement of Mr. Roberts follows:]
                Prepared Statement of Donald E. Roberts
                            January 30, 2018
    Chairman Donovan, Chairman Katko, Ranking Member Payne, Ranking 
Member Watson Coleman, and distinguished Members of the committees, 
thank you for inviting DHS to speak with you today. I appreciate the 
opportunity to discuss the Department of Homeland Security (DHS) 
Science and Technology Directorate's (S&T) work in assisting surface 
transportation agencies, as well as how S&T works collaboratively with 
the Transportation Security Administration (TSA) in this mission area.
    I have been the Surface Transportation Explosive Threat Detection 
(STETD) program manager since the program's inception in fiscal year 
2011, and have been with the Department since 2006. Prior to my time at 
DHS, I was a research, development, test, and evaluation program 
manager for special programs within DoD focusing on Army aviation and 
missile systems, and have worked to develop technology addressing 
critical operational gaps from idea to fielding throughout my entire 
career.
    S&T's Explosive Division enjoys a close working relationship with 
TSA's Intermodal Division to ensure the security of our Nation's 
transportation systems. The Implementing Recommendations Section 1409 
of the 9/11 Commission Act of 2007, Pub. L. 110-53, (codified at 6 
U.S.C. 1138) requires the DHS Secretary to carry out an R&D program 
through the S&T Homeland Security Advanced Research Projects Agency 
(HSARPA) and in consultation with Transportation Security 
Administration (TSA) for the purpose of improving the security of 
public transportation systems. S&T appreciates the continued support of 
this committee and its Members, as we carry this vital security 
mission, and are grateful for the opportunity to foster a stronger 
constructive relationship in the future
    The U.S. surface transportation network is immense, consisting of 
buses, passenger and freight railroads, and ferries. DHS has been 
working diligently with public and private-sector partners to address 
security gaps in the Nation's transportation network. The challenge is 
how to address a decentralized, diffuse, complex, and evolving 
terrorist threat in the context of an inherently open and diverse 
surface transportation system. The two competing challenges of this 
need are the ability to provide credible, real-time detection 
capabilities without interrupting the rapid movement of passengers.
    Public safety officials have little to no capability to detect 
threats being carried into surface transportation venues. They must 
rely on intelligence reports before an attack or public reporting of 
events already under way. There is often no awareness until after an 
attack has already occurred.
    DHS S&T has a number of programs/pilots under way to address the 
identified security needs in the surface transportation sector. The DHS 
S&T Surface Transportation Explosive Threat Detection (STETD) program 
was designed to develop a layered detection system consisting of a 
suite of sensors capable of identifying person-borne threat items, with 
a high probability of detection and low probability of false alarm. The 
DHS S&T role is to develop such technology through Developmental Test 
and Evaluation (DT&E) and then work with TSA's Office of Requirements 
and Capabilities Analysis (ORCA) Intermodal Division to move into 
Operational Test and Evaluation (OT&E), and ultimately transition to a 
commercial partner.
    The STETD program began in fiscal year 2011 working with the TSA by 
defining site-specific requirements through surface transportation 
venue assessments, and identifying capability gaps captured via 
Homeland Security Enterprise organizations. After visiting several 
surface transit venues of varying sizes (large, medium, and small), 
meeting with owners/operators and security personnel, surveying 
commercial technologies, and reviewing technology development efforts 
across Government agencies and the National laboratories, it was 
determined there was no existing solution meeting the requirements 
posed by this very challenging environment.
    The unique challenges of an open system with no fixed checkpoints, 
extremely high passenger throughput, the need to maintain traveler 
privacy, and the physical safety of both the traveling public and 
system operators, and an unalterable existing infrastructure within 
which technologies for threat detection must fit, necessitates a 
dedicated program focused specifically on this significant capability 
gap. Therefore, DHS created a technology development pathway specific 
to the challenge.
    The program is developing prototype stand-off detection sensors, 
with the vision of providing ``curb to platform'' layered threat 
detection distributed throughout a surface transportation venue. The 
STETD program is also advancing research and development of Intelligent 
Video/Video Analytics (IV/VA) algorithms to improve detection of leave-
behind bags and quickly highlight the surrounding circumstances of how 
the bag was left to provide actionable situational awareness of a 
potential threat. The Forensic Video Exploitation and Analysis (FOVEA) 
analytics tool suite, developed within the STETD program, enables the 
operators to save resources on response call-outs; compress long 
durations of surveillance video into much shorter clips reducing review 
effort from days to hours; and helps operators follow individuals of 
interest across multiple camera views. The system is currently in use 
at Washington Metropolitan Area Transit Authority (WMATA) Special 
Operations Center, and S&T is planning to transition the capability to 
the broader Nation-wide end-user community through a commercial partner 
by fiscal year 2019.
    In addition to technology solutions, DHS S&T's Detection canine 
program has also undertaken an effort to focus on the Person-Borne 
Improvised Explosive Device (PBIED) detection canine. Canines are the 
most versatile mobile detection tools that we have to protect the 
homeland today, and S&T's PBIED canine initiative was created to assess 
the strengths and limits of canines specially trained to detect threats 
being carried by people, either on their person or in bags, in mass 
transit and large crowd event venues. This type of parametric study and 
testing had not previously been undertaken in the global detection 
canine community. S&T has taken the lead to conduct this type of 
parametric study and testing, which is critical to understanding the 
limits of performance for the canine detection teams in these types of 
search applications.
    Chairman Donovan, Chairman Katko, Ranking Member Payne, Ranking 
Member Watson Coleman, and distinguished Members of the committees, 
thank you again for your attention to this important mission and for 
the opportunity to discuss S&T's support to TSA and surface 
transportation agencies. I look forward to answering your questions.

    Mr. Katko. Thank you, Mr. Roberts.
    Our fourth witness is Mr. Brian Michael Jenkins. In his 
role as director of the National Transportation Security Center 
of Excellence at the Mineta Transportation Institute, Mr. 
Jenkins directs continuing research on protecting surface 
transportation against terrorist attacks.
    In 1996, President Clinton appointed Mr. Jenkins to the 
White House Commission on Aviation Safety and Security. From 
1999 to 2000, he served as advisor to the National Commission 
on Terrorism and, in 2000, was appointed to U.S. Comptroller 
General's Advisory Board.
    Mr. Jenkins is a decorated combat veteran, having served in 
the 7th Special Forces Group in the Dominican Republic and with 
a 5th Special Forces Group in Vietnam.
    Sir, thank you for your extended service to our country, 
and the Chair now recognizes you for your opening statement.

    STATEMENT OF BRIAN MICHAEL JENKINS, DIRECTOR, NATIONAL 
     TRANSPORTATION SECURITY CENTER OF EXCELLENCE, MINETA 
                    TRANSPORTATION INSTITUTE

    Mr. Jenkins. Chairman Katko, Donovan, Ranking Members 
Watson Coleman and Payne, distinguished Members of the 
committee, thank you very much for inviting me to testify.
    Just yesterday, Homeland Security Secretary Nielsen 
underscored that America is at war, her words, with jihadist 
terrorists world-wide who continue to direct, assist, and 
inspire attacks here in the United States. Let me talk for a 
minute about the threat.
    Terrorists see trains, transit systems, and buses as 
killing fields where most of their attacks are intended to 
cause large-scale casualties. Over the past 20 years, the 
Mineta Transportation Institute has maintained a database of 
what are now more than 5,000 attacks on surface transportation. 
Let me go to that database and give you some numbers.
    Since 9/11, there have been nearly 3,000 attacks on surface 
transportation world-wide, resulting in more than 7,500 deaths; 
14 of those attacks resulted in 50 or more fatalities each. If 
you just take those numbers, the 50 or more incidents, then 
that gives you something between 6 and 18 airline crashes or 
full hull losses.
    In the United States alone, since 9/11, there have been 80 
jihadist plots against all targets, more than 20 jihadist 
attacks. Surface transportation was targeted in 2 attacks and 
in 10 separate terrorist plots.
    World-wide, bombings, armed assaults, derailments lead the 
list on terrorist attacks on surface transportation. Bombings 
account for 58 percent of all the attacks and 51 percent of the 
fatalities; armed assaults, 11 percent; derailments, 8 percent.
    In 2017, both al-Qaeda and ISIS encouraged followers to 
derail trains. This is a long-time ambition of Osama bin Laden, 
and al-Qaeda went further and provided on-line advice on how to 
build a concrete derailment device.
    We haven't seen any noticeable increase in the number of 
attempted derailments overall, but just last week, a TGV high-
speed train in France hit a concrete block placed on the rail 
line. It stopped the train. It did not derail the train. The 
incident is now being investigated.
    Although, strictly speaking, not an attack on surface 
transportation, we do see an increase in vehicular assaults or 
car rammings. This is becoming a world-wide trend. There were 
10 incidents between 1996 and 2013, but the pace has quickened 
since then. In the 4 years since 2014, there have been 40 such 
attacks, 20 in 2017 alone. The United States has experienced 6 
of these attacks since 2006.
    Analysis of foiled terrorist plots gives us some 
indications of how adversaries look at security. They avoid 
protected targets. They are aware of CCTV. The visible presence 
of police and other security personnel affects their planning. 
Over the long run, we can discern deterrent effects.
    Finally, and this is good news, ``If you see something, say 
something'' campaigns work, and the rate of reporting is 
increasing. Reports of suspicious activity or suspicious 
objects by alert staff and passengers have resulted in 
authorities being able to thwart 11 percent of the attacks and 
find and disarm 20 percent of the bombs. That is a significant 
achievement. We might want to try to explore how we can improve 
public engagement even more. Thank you very much.
    [The prepared statement of Mr. Jenkins follows:]
             Prepared Statement of Brian Michael Jenkins\1\
---------------------------------------------------------------------------
    \1\ Jenkins is also the senior adviser to the president of the RAND 
Corporation.
---------------------------------------------------------------------------
                            January 29, 2018
    Chairman Katko, Chairman Donovan, Ranking Members Watson Coleman 
and Payne, and distinguished Members of the Homeland Security 
Committee, thank you for inviting me to testify on the important topic 
of surface transportation security.
    Public surface transportation offers terrorist attackers crowds of 
people concentrated in easily accessible (and escapable) venues. While 
sabotaging railroad tracks and other right-of-way infrastructure often 
may be intended as merely disruptive, terrorists see trains, transit 
systems, and buses as killing fields where attacks are intended to 
result in large-scale casualties.
    Over the past 20 years, the Mineta Transportation Institute (MTI) 
has built and updated a detailed database that now contains more than 
5,000 attacks on public surface transportation (primarily buses, 
trains, stations, and passenger ferries) since 1970. This database, 
which supports the Transportation Security Administration's (TSA's) 
analysis, as well as MTI's own reporting, provides a basis for 
assessing patterns and trends in terrorist tactics, targeting, and 
techniques.
    My remarks today are largely based on observations from this 
database. I will focus on the terrorist threat and therefore the 
relevance of the proposed security measures.
    Just yesterday, Secretary of Homeland Security Nielsen underlined 
that ``America is at war'' with jihadists world-wide who continue to 
direct, assist, and inspire attacks. She went on to say that the United 
States had seen a spike in terrorist attacks and that terrorist were 
increasingly targeting soft targets which have to be hardened.
    Terrorist attacks on aviation have declined, although some 
terrorist groups remain fixated on sabotaging airliners, attacks 
targeting public surface transportation have increased. However, the 
shift from airlines to trains and buses and the underlying reasons are 
more complex than mere target substitution. Since 9/11, there have been 
27 attacks (hijackings and sabotage attempts) on airliners and 110 
attacks on airports. Attacking airports instead of airliners may be 
target substitution. Attacks on airliners resulted in 496 fatalities, 
while attacks on airports resulted in 195.
    During the same period, 2,828 attacks targeted public surface 
transportation targets, (not including infrastructure) resulting in 
7,524 deaths. That is an average of about 3 fatalities per attack, but 
it is noteworthy that 14 attacks resulted in 50 or more fatalities 
each. These are roughly equivalent to 6 ``hull losses'' or airline 
crashes. Examples include the 2004 Madrid commuter train bombing, which 
left 191 dead; the 2005 London transport bombings, which killed 52; and 
the 2007 Mumbai train bombing, in which 207 were killed.
    Since 1970 the majority of attacks on surface transportation have 
taken place in developing countries, which have experienced 
approximately 4,500 such attacks. These attacks also are more lethal 
than attacks elsewhere. Europe has experienced 492 attacks since 1970, 
and the United States and Canada together have suffered 65 attacks, 
almost half of which were directed against passenger trains, stations, 
and buses. However, since 9/11, more than 80 terrorist plots against 
all target categories have been uncovered in the United States, along 
with more than 21 attacks inspired by jihadist ideology, and surface 
transportation has figured prominently in their plans.
    Law enforcement authorities in the United States have done 
remarkably well in intercepting terrorist plots. Between 9/11 and 2017, 
the FBI, working with local police, uncovered and thwarted about 80 
percent of all home-grown jihadist plots, often through undercover 
operations.\2\ These plots provide a window into terrorist targeting 
preferences--and surface transportation features prominently.
---------------------------------------------------------------------------
    \2\ Brian Michael Jenkins, The Origins of America's Jihadists, 
Santa Monica, Calif.: RAND Corporation, 2017.
---------------------------------------------------------------------------
    Since 9/11, two surface transportation attacks were actually 
attempted. In October 2017, an armed white supremacist entered a secure 
area of an Amtrak passenger train engine and triggered an emergency 
stop. He was overpowered by train personnel and held for arrest; his 
ultimate intentions are not known. In December 2017, Akayed Ullah, 
inspired by ISIS ideology, detonated a crude pipe bomb attached to his 
body at a busy bus terminal in New York City. The device malfunctioned, 
injuring only the bomber.
    Surface transportation targets were identified by terrorists in at 
least 10 additional reported terrorist plots in the United States. 
Canadian police also arrested two men charged with plotting to derail a 
passenger train between Toronto and New York. In addition to these 
plots, at least one terrorist attack and several shootings by mentally 
unstable individuals occurred in the public areas of airports.
    Few of these interrupted plots reflected mature operational plans. 
As indicated, only two terrorists succeeded in making an actual attempt 
on surface transportation targets, and they achieved little result. 
Several plots were police ``stings,'' in which the perpetrators 
identified the transportation targets. However, at least one plot, a 
planned multiple-attacker suicide bombing in New York in 2009, can be 
considered a close call. The plot's leader, who had trained in 
Afghanistan, reportedly had built suicide vests but destroyed them when 
he suspected police were about to close in. Collectively, the many 
plots indicate continued terrorist interest in targeting surface 
transportation.
    Fortunately, America's post-9/11 cohort of home-grown terrorists 
have not proved to be especially competent. Their plots, for the most 
part, can be described as aspirational. Their desire to belong exceeds 
their concerns about their own security and they end up joining what 
turns out to be the ``FBI branch'' of al-Qaeda or ISIS. Their bombs 
seldom work. In two of four bombing attacks, the device did not 
detonate as expected. In the third attack--the Boston Marathon 
bombing--the terrorists' two bombs killed 3 persons, although many were 
injured. In a fourth jihadist attack involving bombs in New Jersey and 
New York, 20 were injured, none were killed. This gives U.S. Jihadist 
bombers an FPA (fatalities per attack) that is only a fraction of the 
world average.\3\ Most jihadist terrorist bombings in the United States 
are one-offs--there is no learning and no improvement in skills.
---------------------------------------------------------------------------
    \3\ All statistics derive from MTI's database.
---------------------------------------------------------------------------
    Through their on-line publications, jihadist terrorist groups have 
urged followers to attack transportation systems. In 2017, both al-
Qaeda and the Islamic State of Iraq and al-Sham (ISIS) encouraged 
attempts to derail trains, a long-time ambition of Osama bin Laden. Al-
Qaeda in the Arabian Peninsula (AQAP) added to its exhortation 
instructions on how to build a derailing device. Thus far, there has 
been no noticeable increase in attacks aimed at derailment, however, on 
Sunday, January 21, a TGV high-speed train hit a concrete block placed 
on the rail line in the south of France. Two other blocks reportedly 
had been placed on the tracks. The train did not derail. French 
authorities are currently investigating whether there is a nexus to 
terrorism.
    While terrorists have traditionally attacked unprotected targets, 
they have historically preferred venues with some symbolic importance. 
That is less and less the case as terrorists move toward what might be 
called ``pure terrorism,'' attacking assemblies of people or 
individuals anywhere, killing simply to participate in bloodshed and 
make the point that no one is safe anywhere. ISIS, in particular, has 
attracted self-selecting terrorists whom it encourages with the promise 
of applause and ex post facto membership.
    Bombings, armed assaults, and derailments lead the list of tactics 
employed against surface transportation world-wide, accounting for 
approximately 77 percent of all types of attacks and 74 percent of all 
fatalities. Bombings account for approximately 58 percent of attacks 
and 51 percent of fatalities. Armed assaults are individually more 
lethal. They account for about 11 percent of all attacks and 18 percent 
of all fatalities. We also see a growing number of primitive attacks 
involving knives and hatchets. Derailments, using bombs or mechanical 
means of sabotage, constitute almost another 8 percent of all attacks 
and account for 5 percent of total fatalities.
    Although vehicular attacks are not, strictly speaking, attacks on 
public surface transportation, they are increasingly employed by 
terrorists world-wide (and some vehicular assaults abroad have been 
directed against surface transportation targets, for example, driving 
cars into bus stops or buses).\4\ Both al-Qaeda and, more recently, 
ISIS have urged their followers to drive into crowds of pedestrians. A 
deadly vehicle attack took place in New York in October 2017, when an 
individual inspired by ISIS veered a rented truck on to a bike path, 
killing 8 people. Ten such attacks took place between 1996 and 2013, 
but since 2014, the pace has quickened, with more than 40 vehicular 
assaults. More than 20 of them occurred in 2017 alone. More than 150 
people have been killed by homicidal drivers in the past 19 months, and 
nearly 800 have been injured. Seven such attacks have occurred in the 
United States since 2006. Vehicular assaults pose a major problem for 
urban planners.\5\
---------------------------------------------------------------------------
    \4\ Brian Michael Jenkins and Bruce R. Butterworth, Terrorist 
Vehicle Attacks on Public Surface Transportation Targets, San Jose, 
Calif.: Mineta Transportation Institute, 2017.
    \5\ Brian Michael Jenkins, ``Navigating the Latest Terrorist 
Trend,'' U.S. News & World Report, December 19, 2017.
---------------------------------------------------------------------------
    It is difficult to assess the effectiveness of security measures 
against terrorism. Terrorist attacks are statistically rare and 
random--there are too few, and they are spread over too many target 
categories and countries to allow empirical evaluation. Moreover, 
security measures don't ``catch'' would-be attackers like insects in a 
net. Few attacks are visibly prevented by security.\6\
---------------------------------------------------------------------------
    \6\ Brian Michael Jenkins, The Challenge of Protecting Transit and 
Passenger Rail, San Jose, Calif.: Mineta Transportation Institute, 
2017.
---------------------------------------------------------------------------
    Nevertheless, it is possible in some cases to discern deterrent 
effects. For example, as security to protect commercial aviation has 
increased over the years, there has been a corresponding decline in the 
number of attempted airline hijackings and bombings. A majority of 
these since 9/11 have involved mentally unbalanced individuals who, in 
fact, smuggled no weapons or explosive devices on board, but claimed to 
possess bombs. By the nature of their mental condition, they would not 
be easily deterred. Finally, most of the recent events have occurred 
outside of the United States and Europe, in places where security is 
less stringent. All of this suggests that deterrence has been 
effective.\7\
---------------------------------------------------------------------------
    \7\ Brian Michael Jenkins and Bruce R. Butterworth, The Threat to 
Air and Ground Transportation Posed by Mentally Disordered Assailant, 
San Jose, Calif.: Mineta Transportation Institute, 2017.
---------------------------------------------------------------------------
    Analysis of foiled terrorist plots, in which apprehended terrorists 
were questioned about their target choices and planning considerations, 
has provided some indications of how adversaries evaluate security 
measures. Terrorists demonstrably favor soft targets where they do not 
have to penetrate protected perimeters and are unlikely to encounter 
armed guards. There are ample public spaces that meet these criteria. 
Anecdotally, we know that terrorists are sometimes aware of CCTV and 
may try to disguise their reconnaissance efforts. The visible presence 
of police and other security personnel has caused them to delay 
attacks.\8\
---------------------------------------------------------------------------
    \8\ Brian Michael Jenkins, Carnage Interrupted: An Analysis of 
Fifteen Terrorist Plots Against Public Surface Transportation, San 
Jose, Calif. : Mineta Transportation Institute, 2012.
---------------------------------------------------------------------------
    The terrorists may presume that some kind of surveillance is in 
place--for example, the presumption of undercover police adds to 
uncertainty, which adversaries generally abhor. This suggests that 
robust security presence operating in unpredictable ways, accompanied 
by the impression that more security personnel might be present, 
contributes to deterrence, although the actual effect cannot be 
calculated.
    One aspect of security merits further examination and effort. ``See 
something, say something'' works and the rate of reporting has been 
increasing. Observations and reports of suspicious activities or 
objects by employees, passengers, or others have enabled authorities to 
prevent 11 percent of terrorist attacks and to disarm or destroy 20 
percent of terrorist bombs. Public education programs and intensified 
campaigns to engage staff and passengers may be able to further improve 
this performance.

    Mr. Katko. Thank you very much, Mr. Jenkins. We appreciate 
you being here today.
    I now recognize myself for 5 minutes of questions--or 
actually what we are going to do is we will go to 3 minutes of 
questions, and then we are going to have to break very soon for 
votes, and then we are going to have to come back and get 
through it. So my question will be very brief, I hope.
    We recently had a hearing on TSA's strategic 5-year 
technology investment plan. The purpose of that plan is to 
accelerate significant advancements in security technology 
capabilities and deployment of these systems in the Nation's 
TSA arena.
    What is starkly lacking from that 5-year plan is any 
mention of surface transportation anywhere. So my question to 
you is: How would you describe TSA's prioritization of surface 
transportation capability gaps compared to aviation capability 
gaps? Anyone want to take that?
    Mr. Pryor. Yes, sir. I am the sacrificial technologist 
today.
    Mr. Katko. I guess the point is--I am not trying to put 
anybody on the spot here. To me, that is a glaring omission. I 
mean, we just had the first suicide--attempted suicide bombing 
of an American train system, and that is a pretty serious 
thing, and so that the 5-year technology plan is designed to 
force TSA to look at the advancing technologies.
    Let me ask you this: Isn't it fair to say that it would be 
a good idea to have something in the 5-year technology plan 
regarding surface transportation systems?
    Mr. Pryor. Yes, sir. The 5-year technology plan is 
primarily focused on TSA's procurements through those 5 years, 
and as mentioned, TSA does not procure technologies directly 
for surface transportation venues.
    TSA does have other plans--for example, the National 
Security Plan, the National Infrastructure Protection Plan, and 
others--that do talk about advancements in technology. As far 
as prioritization, TSA has many different priorities and has to 
rank order them according to TSA's understanding of its mission 
and its threats.
    Mr. Katko. I will just close with this, and I will move on, 
because I think it is only fair to give my colleagues a chance 
to ask. I will note that given the billions--with a B--the 
billions of passengers per year on American surface 
transportation systems, to me, it would be a good idea to start 
including that in part of the plan because, whether you like it 
or not, it is clear now that that is also a target of the bad 
guys, and so we should at least have something in there that 
forces public scrutiny in a more crystalized manner of that 
system.
    So, with that, I recognize my colleague from New Jersey, 
Mrs. Watson Coleman, for questions.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman.
    First, I would like to ask for unanimous consent to enter 
this letter in from the American Public Transportation 
Association in support of my legislation.
    Mr. Katko. Without objection, so ordered.
    [The information follows:]
       Letter from the American Public Transportation Association
                                 December 13, 2017.
The Honorable Bonnie Watson Coleman,
United States House of Representatives, Washington, DC 20515.
    Dear Congresswoman Watson Coleman: On behalf of the more than 1,500 
member organizations of the American Public Transportation Association 
(APTA) and the billions of public transportation riders across the 
nation, I thank you for your leadership in introducing the ``Surface 
Transportation and Public Area Security Act of 2017.''
    The industry welcomes the bill's increased authorization for 
federal transit security funding. It would also improve intelligence 
information sharing and coordination and create new security training 
programs. Lastly, we appreciate the bill's provisions that promote 
research, demonstration, and implementation of innovative security 
technologies.
    I thank you for the opportunity for APTA members to offer input on 
the bill. We look forward to working with you as the legislative 
process continues.
            Sincerely,
                                          Richard A. White,
                                          Acting President and CEO.

    Mrs. Watson Coleman. Thank you so much.
    I am going to try to get some ``yes'' and ``no''s here. So 
I am going to start with Ms. Proctor and anybody else that 
wants to jump in here.
    I want to ask about: Do you believe that the security 
grants--the Transit Security Grants Program is effective?
    Ms. Proctor. Yes, ma'am, I do.
    Mrs. Watson Coleman. Do you believe that it is 
undersourced? Do you think you need more money?
    Ms. Proctor. I would say that the security partners that 
receive the grants would certainly agree with that.
    Mrs. Watson Coleman. Would certainly say so. What about the 
VIPR program? Do you think that that is helpful?
    Ms. Proctor. The VIPR program has been a great asset to our 
security transportation partners in providing----
    Mrs. Watson Coleman. So do you support increasing the 
number of those? Do you think that that is a real link between 
security and--well, security?
    Ms. Proctor. The presence of VIPR teams and surface 
transportation has true value.
    Mrs. Watson Coleman. What about just the additional canines 
as security? I am just so interested in them because I know 
that the surface transportation issue is just so complex and so 
diverse that it seems to me that puppies trained are very 
helpful to keeping our passengers safe.
    Ms. Proctor. I am certainly an advocate of the TSA canine 
program and believe it has great value in the surface 
transportation arena. You often see canines in places like 
Amtrak.
    Mrs. Watson Coleman. Yes.
    Ms. Proctor. And WMATA.
    Mrs. Watson Coleman. So the answer is basically yes. I am 
sorry. I am just----
    Ms. Proctor. Yes.
    Mrs. Watson Coleman. So, in addition to that, do you think 
that more law enforcement presence is a good deterrent as well 
and a good security measure?
    Ms. Proctor. More law enforcement presence is always good.
    Mrs. Watson Coleman. Should I get you to sign an 
endorsement to my surface transportation legislation, which 
hopefully will be addressed? This is just a rhetorical 
question. I am not going to put you in that position.
    Ms. Proctor. Thank you.
    Mrs. Watson Coleman. But it does address those needs that 
we think that are woefully inadequately addressed by TSA that 
is doing a yeoman's job in aviation but leaves a lot to be 
concerned about with regard to surface transportation.
    I have a number of questions. I certainly would love to 
have a conversation with Mr. Jenkins about the fact that we 
don't have the experiences that other countries have had, and 
were there things that they do or can do with technology that 
they have that we don't have and don't employ and don't use, 
but I think my time has run out. But I would like you to put 
that in your mind, and if we can't get to that today, you will 
be able to give that some thought and communicate to us through 
the Chairman.
    Mr. Katko. I think--I am sorry. Thank you, Mrs. Watson 
Coleman.
    I think we will have time after votes to revisit that 
issue.
    Mrs. Watson Coleman. OK.
    Mr. Katko. We will do another round of questioning so long 
as time permits.
    Mrs. Watson Coleman. I yield back.
    Mr. Katko. The Chair now recognizes the gentleman from New 
York, Mr. Donovan.
    Mr. Donovan. We only have two votes, so we will be back 
real quick, so let me ask one question, and then we will get to 
the other stuff.
    Mr. Roberts, I just wanted to ask you: The Surface 
Explosive Transportation Detection Program was created about 5 
years ago, 6 years ago, in 2011, I believe it was. It was 
supposed to develop multi-layer detection systems. I was just 
wondering, have we deployed any of those, and if we have, how 
many, and if you at some point can provide a list for us?
    Mr. Roberts. Yes, sir. The program began with cooperation 
of our customer component here, the TSA, and it began in 
basically a survey of the requirements needed. So the first 
couple of years was assessing whether what the end-users 
needed, what kind of technology would work within their systems 
in a high-throughput open system. It also measured the concern 
with cost for these systems.
    Then we developed a requirements pathway in our current 
technology development road map for these systems. So these 
current systems, we support TSA in developing technology to a 
developmental test and evaluation stage, proof of principle, 
and then we hand it off to Bob's mass transit test beds to be 
able to go through operational testing.
    So we are still in the proof of principle stage with these 
multi-layered sensor systems, and so we are not in the 
operational testing yet. We are in the developmental testing 
phase.
    Mr. Donovan. Great. Thank you.
    Mr. Chairman, I yield so we can get up to votes.
    Mr. Katko. Thank you, Mr. Donovan. The Chair now recognizes 
Mr. Payne for questioning.
    Mr. Payne. Thank you. Mr. Proctor, last year, there were 
reports that Australian officials arrested two men last year 
trying to use an improvised chemical dispersion device to 
release a toxic chemical in public transportation. How is TSA 
working with its partners and offices and components at DHS to 
help transit owners and operators prevent, detect, and respond 
to similar threats?
    Ms. Proctor. Thank you, Ranking Member. TSA has convened a 
number of opportunities to share this information with our 
stakeholders. We provided a Classified briefing of that threat 
to our mass transit and passenger security partners. We have 
held a workshop, a chemical threat workshop, to talk about some 
of the technological options that are out there. We did that in 
December.
    We have shared information about countermeasures, and we 
continue to have that discussion with our security partners as 
we continue to plan training that will help them continue to 
train their work force.
    Mr. Payne. OK. Thank you.
    I yield back.
    Mr. Katko. Thank you, Mr. Payne.
    This subcommittee hearing now stands in recess, subject to 
the call of the Chair, and I will caution everyone to please 
come back quickly right after the votes, and we will get right 
back at it. Thank you very much.
    [Recess.]
    Mr. Katko. The hearing is now in session. Thank you for 
waiting for us in that delay. We got back as quickly as 
possible.
    The Chair now recognizes from gentleman from Louisiana, Mr. 
Higgins, for 3 minutes of questioning.
    Mr. Higgins. Thank you, Mr. Chairman. I will move quickly.
    Madam, gentlemen, I represent the Third District of 
Louisiana, which is recognized as a hub of industrial growth in 
the petrochemical industry and oil and gas. Over $120 billion 
worth of projects either currently producing and under 
construction and expansion or moving quickly toward production 
and under construction. Each of these private-endeavor projects 
have stood up quite extensive security measures within their 
perimeters. They have excellent teams, including tactical teams 
from my friends at the thin blue line. They have excellent 
screening of personnel for drugs and explosives regarding 
keeping that stuff off of the premises.
    But I am concerned about--and I would like to hear your 
input on--the rural areas of rail systems and what are we doing 
to help secure these rail systems? These products--dangerous 
chemicals and fuels are leaving these projects, right, leaving 
these plants. They are either shipped by truck or by rail 
mostly. But the truck driver himself becomes a security asset 
because it is a single unit moving; he is driving it; he is 
responsible for it; and they accelerate quickly when they have 
left the security environment of the plant itself.
    But, by rail, these--the railways--the trains exit very 
slowly. It takes them awhile to get up to speed. So I am 
concerned about a timed device, an explosive device, or a 
remotely-controlled device being placed on a slow-moving train 
carrying dangerous products through rural areas, because they 
don't stay in rural areas. They leave the plants. They go 
through heavily-populated areas and then onto their final 
destination. So what are we doing to help with that?
    Mr. Pryor. Thank you, sir. Technologically-wise, and of 
course, Chief Proctor has numbers of operational solutions as 
well, we are doing three general separate things. The first 
thing, we have a partnership with a major pipeline company--it 
would be a name you know, sir; I prefer not to give it in open 
session--where we provide infrastructure protection test bed 
for block valve sites, booster sites, and we have also put a 
small test bed up on the campus of our analysis laboratory, 
Johns Hopkins Applied Physics, up in Maryland, that they can 
use as a local prototype, and then we export those 
technologies. So that is the work we are doing in the physical 
plant.
    In the case of rail, TSA led an effort a number of years 
ago that led to a redesign in tank cars to make them less 
susceptible to ballistic damage from high-powered rifles, 50-
cals, those kinds of things, as well as the IEDs you mentioned. 
Those are rapidly coming into service. We also have pretty much 
pioneered within the United States under-vehicle screening 
systems. S&T collaborated with us, and those systems have 
actively been used in places like New York and others. So that 
is a third approach.
    Then we also have a good understanding of ways that hazmat 
vehicles could potentially be controlled. If a shipper or a 
truck operator decides that they feel they have a threat, there 
are modifications that can be made to the vehicle to allow it 
to be safely disabled without harm to the driver or the public.
    Mr. Higgins. Thank you for that very thorough answer.
    Mr. Chairman, perhaps the members of the panel that have 
additional responses to my question could submit their answers 
in writing.
    In the interest of time, I yield back.
    Mr. Katko. Thank you, Mr. Higgins.
    Mr. Higgins. Thank you.
    Mr. Katko. The Chair recognizes the gentleman from Rhode 
Island, Mr. Langevin, for 3 minutes of questions.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here today.
    Mr. Chairman, as the panel's testimony has made very clear, 
countless Americans and American businesses depend on surface 
transportation every day, highlighting the importance of this 
hearing this afternoon.
    So, increasingly, surface transportation providers rely on 
interconnected systems to monitor and control vehicles in 
supporting infrastructure. Now, with that increased 
connectivity, though, comes an increased responsibility to 
protect those systems against things like cyber threats. So 
recent events, including the ransomware attacks last June that 
debilitated several shipping and logistics companies in an 
incident reported just last week targeting a regional surface 
transportation provider in Toronto demonstrate that this threat 
is real.
    So my question to start with, Ms. Proctor, in your 
testimony, you also discussed resources TSA invests to help 
surface owners and operators identify vulnerabilities and risks 
in their operations and to help owners and operators develop 
risk-mitigation solutions. So I want to know: Does TSA 
currently view cybersecurity as a capability gap in surface 
transportation security?
    Ms. Proctor. Thank you so much for that question. Yes, sir. 
TSA does view cybersecurity as a gap. As you are aware, we have 
done a number of things to both educate our surface security 
partners on cybersecurity issues. We have developed tools for 
their use. We have developed the cybersecurity tool kit. We 
have started a number of cybersecurity workshops. We delivered 
4 of those in fiscal year 2017. We have started a series of 6 
in this fiscal year. Our focus in those is--those are focused 
on the nontechnical issues which end up really creating a lot 
of the problems with things like ransomware and phishing 
attacks.
    So, in those workshops, we are focused on 5 things that 
they can do in their company. We call it 5 and 5. Five things 
you can do in 5 days that raise the cybersecurity bar in your 
company. When there are cyber-related incidents, we distribute 
cybersecurity awareness messages to our security partners to 
identify the threat and to encourage them to take certain steps 
so that they might be able to thwart future attempts.
    We work very closely with ICS-CERT. We have worked very 
closely with them in developing, for instance, our pipeline 
security guidelines because of the significance of cyber in the 
control of the Nation's pipeline. So we have partnered with 
those that we realize are the recognized experts there in ICS-
CERT, and we bring that knowledge to our surface security 
partners.
    Mr. Langevin. When you say ``pipeline,'' does that include 
things like the supply chain?
    Ms. Proctor. Yes, sir.
    Mr. Langevin. OK. Thank you. If I could, also, in your 
testimony, you described TSA's role in supporting the accurate 
and timely exchange of intelligence information with surface 
transportation owners and operators. So how does TSA monitor 
and share relevant intelligence about cybersecurity threats to 
the owners and operators of surface transportation systems?
    Ms. Proctor. We provide briefings to our surface security 
partners. When appropriate, we provide Classified information 
to those cleared partners. But we provide that information 
through both teleconferences, through our cybersecurity 
awareness messages, and through our work with ICS-CERT.
    Mr. Langevin. Thank you. I have gone over my time. I have 
some other questions I will submit for the record, but I want 
to thank our panel.
    With that, I yield back.
    Mr. Katko. Thank you, Mr. Langevin. I will note that we are 
probably going to do a second round of 3 minutes of questions. 
If you want to stick around, we are happy to do so.
    The Chair now recognizes the gentleman from Florida, Mr. 
Rutherford, for 3 minutes of questions.
    Mr. Rutherford. Thank you, Mr. Chairman.
    Mr. Jenkins, in Mr. Roberts' testimony, he noted, and I 
quote: Public safety officials have little to no capability to 
detect threats being carried into surface transportation venues 
and must rely on intelligence reports before an attack.
    You had some really good information, I think, about the 
types of attacks that have taken place against surface 
transportation. Seventy-seven percent of all attacks were 
bombing, armed assaults, or derailments, and then you went on 
to break that down. That is pretty good intel.
    Has there been any kind of work with TSA to see that the 
nature of those attacks and then how we may be able to respond 
to those, besides the intelligence gathering that Mr. Roberts 
correctly pointed out is necessary?
    Mr. Jenkins. The answer is yes. In fact, we maintain that 
database to support TSA. So we update the database every 15 
days. TSA personnel and their intelligence folks and their 
analytical folks have the password that gives them direct 
access to the database. It is not available publicly.
    Mr. Rutherford. Uh-huh.
    Mr. Jenkins. Because the database itself simply doesn't 
record the incident, it is a very detailed database that 
records, for example, if we are talking about explosives, 
method of delivery, method of concealment, type of explosives, 
and so on.
    Mr. Rutherford. Right.
    Mr. Jenkins. TSA uses that to support their own analysis, 
and it supports, of course, at the same time, our separate 
reporting, and those reports go to TSA, and they go to the 
operators.
    Mr. Rutherford. OK. I understand, Ms. Proctor, that TSA is 
doing some work with stakeholders to get feedback on some 
testing and technology, but can you talk about any development 
of technology as a result of the information that has been 
provided, the kind of information that Mr. Jenkins is talking 
about? Are we utilizing that at ORCA or how----
    Ms. Proctor. I would defer to Mr. Pryor on that question.
    Mr. Pryor. Yes, sir. Our annual work plans and spend plans 
rest on several fundamental analyses. One, of course, is threat 
and risk. Mr. Jenkins' information is always very helpful for 
us. Another one is on capability gaps provided by our industry 
partners. We have an annual process where those are developed. 
Then the third is National laws, 9/11 Act, National plans, and 
those sorts of things.
    So risk is an important component of how we determine our 
work each year.
    Mr. Rutherford. Thank you, sir.
    My time has run out. I yield back.
    Mr. Katko. Thank you, Mr. Rutherford.
    I have two quick questions. The first one is something that 
I have been become aware of. It is a little off track here, a 
little bit but not much. I have become aware of the fact that 
it seems more and more that some train companies that haul 
hazardous material will oftentimes park those hazardous 
materials, sometimes for days on end, outside a secure area. I 
would like to hear if that is a growing concern amongst all of 
you, and whether that is an area of inquiry that we should get 
into, and whether or not you have concerns. Any of you?
    Ms. Proctor. Mr. Chairman, the regulation requires that 
hazmat material on freight rail trains be maintained in a 
secure area. So they should not be left unattended in an area 
that is not considered secure. That is a requirement that they 
be in a secure area and maintained until they are transferred.
    Mr. Katko. I am aware what the regulations are, but I am 
asking--I guess I am asking, are you aware of instances where 
that is happening lately? That seems like this term single 
tracking comes to mind, where some companies engage in that, 
and, therefore, sometimes they are storing things outside of 
the secure area when they shouldn't be. Has that become an 
issue, or is that something that is not a big issue in your 
mind? Any of you? Anybody?
    Ms. Proctor. Sir, that has not been something that has been 
brought to our attention. To the contrary, our surface 
inspectors report extremely high rate of compliance on that, so 
we have not had reports of that.
    Mr. Katko. OK. In a related matter, when you go through the 
cities--well, I will withdraw that. Let me change gears back to 
a more germane question here. There seems to be a pervasive, 
not just with TSA but Homeland Security as a whole, a prolonged 
technology development process. Sometimes by the time the 
technology gets to the front lines, it is already antiquated or 
on the way to being antiquated.
    I would like to know from you all if there is any change to 
the TSIF for the testing facility that would help alleviate 
that process because there is a perceived bottleneck there. Are 
there things we could do with TSIF that might help that 
process? Anybody?
    Mr. Pryor. Yes, sir. TSIF is not a primary test venue for 
surface transportation. Its focus is primarily on passenger 
air. Because we are outwardly facing, we have a very adroit and 
high-speed process where we can induct products from industry, 
get them tested, and, if they are operation effective and 
suitable, put them in the field. That is one of the hallmarks 
of our program, and we do that through our relationships with 
many different laboratories and centers.
    As I mentioned, our test lab is Applied Physics, but we 
also have relationships with Navy, DOD, a number of DOD 
agencies, Department of Energy, and others that allow us to 
leverage their developments to get things in the field for 
prototyping very quickly.
    Mr. Katko. Why aren't they doing it on the aviation side? 
Do you have any idea?
    Mr. Pryor. Procurement, of course, is managed by the 
Federal Acquisition and Regulations and other requirements, and 
the degree of rigor leading to a procurement often requires a 
significant amount of testing, particularly for passenger air. 
It is just in a different environment than the one we operate 
in where we have a great deal more flexibility in how we bring 
things to the field.
    Mr. Katko. All right. Thank you very much, very helpful.
    I now recognize the gentlewoman from New Jersey, Mrs. 
Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Mr. Jenkins, I would like to have a conversation with you a 
little bit here. I am really concerned about the recent trend 
of terrorists who use trucks or cars or whatever, like in New 
York and like in Charlottesville. I am just wondering: These 
attacks, are these lone wolves, low financing, low planning, 
low everything? Is there anything that we should be doing, 
could be doing, that would make sense from a security 
perspective?
    Mr. Jenkins. In terms of solving the problem as a security 
issue, it is limited. The fact is that, in cities, thousands, 
tens of thousands, millions of people live in close proximity, 
in some cases only inches away from thousands of vehicles. 
Without completely reconfiguring our urban landscape, we are 
not going to be able to create effective barriers throughout. 
We just have to be realistic about that.
    Things that are being explored, I mean, everything from 
putting in place some barriers to protection of venues for 
certain periods of time that can be done, looking far out as we 
move toward more autonomous vehicles, then that may provide 
some solution in that they can be programmed not to do that. 
But, of course, that raises other kinds of cyber vulnerability. 
So this is one that we are simply going to be living with and 
struggling with. As I said, I am afraid, because, as you have 
correctly pointed out, it is so easy to do, that this is 
becoming a trend.
    Mrs. Watson Coleman. Thank you. We have been a bit more 
fortunate than places in Europe and otherwise as it relates to 
attacks on surface transportation. I am wondering: Do you know 
of any lessons that they have learned, any technologies they 
employ, any best practices they employ, having had these 
experiences, that we could be benefiting from if we had the 
resources? Is that kind of sharing happening?
    Mr. Jenkins. First of all, there is coordination between 
what TSA does in terms of surface transportation and a great 
deal of liaison goes on between the other entities abroad, 
especially with the British, in terms of what they do for 
securing surface transportation. So there is a lot of exchange 
going on already.
    In some cases, they have different approaches. For example, 
in France and in Belgium, either in response to intelligence or 
in response to a terrorist event, they will literally flood the 
transportation system with thousands of individuals drawn from 
the gendarmerie and drawn from the military, simply to augment 
security.
    Mrs. Watson Coleman. But this is related to intelligence, 
advance information, and----
    Mr. Jenkins. Or an actual attack, and that is not an 
approach that we normally take.
    Mrs. Watson Coleman. We actually still haven't gotten to 
the other question that I had that I just want to put on the 
table, and that is, is there any technology that you see being 
employed in places that have had these experiences much more 
than us that would be helpful here? I will just be happy if you 
would send that information to me.
    With that, I yield back. Thank you.
    Mr. Katko. Thank you, Mrs. Watson Coleman.
    The Chair now recognizes the gentleman from New York for 
questioning.
    Mr. Donovan. Thank you, Mr. Chairman.
    Mr. Pryor, I think during the Chairman's questioning, you 
said that you are able to quickly deploy security measures that 
have been tested and get them out in the field as quickly as 
possible.
    During your testimony earlier, Mr. Roberts, it has been 7 
years now since the detection, multi-layer detection, has been 
authorized, has been in progress, and yet, 7 years later, we 
have nothing in the field. Can you explain to me what the 
obstacles are, and if so, what could be done about overcoming 
them?
    The other part of my question would be: I suspect in those 
7 years, our enemies, the people who are threatening our 
passengers, our riders, have changed their modes and their 
methods, and so we may be testing things that, in 2011, 2012, 
2013, were their modes and methods, but now 6, 7 years later, 
those have changed, and maybe we are testing things that are 
obsolete now.
    Mr. Roberts. Yes, sir. One of the things about the modes 
and methods--I will answer that portion first--is that, with 
Mr. Jenkins' report and with our international partners, we are 
aware of what the evolving threats are. So we are--our design 
points for our technology are still relevant and realistic.
    As far as the 7-years piece, as I mentioned before, the 
first part of our program was standing up from nothing. We, 
along with our component customers, TSA, and our stakeholders, 
gathered and understood what the requirements were, what their 
priorities were. So what we did, in addition to that, is assess 
what was available as far as technology to stop this potential 
threat in an open system, high throughput, not interfering with 
existing infrastructure, those kinds of things. It was--we 
reviewed what was available in DOD and National laboratories, 
and Mr. Pryor's program tested and evaluated some of that. My 
program also did the same thing, the S&T program. So we started 
with the first piece of the program, just understanding where 
we needed to go and frame out the technology development 
pathway to set the requirements for our partners with the 
expertise.
    So, really, where we are now in driving the technology 
development for our end goal started 2013, 2014, but it is--the 
testing and evaluation, it is not obsolete. It is designed with 
our end-users in mind. That is one of the reasons we are being 
successful in our technology development pathways; we are 
involving our component customers, as well as the stakeholders, 
in the design process.
    Mr. Donovan. Even if that is true that it began in 2013, 
2014, that is still 4 or 5 years ago. Do we have any 
expectations of getting anything in the field in the near 
future?
    Mr. Pryor. Sir, one part of your answer is that S&T and TSA 
occupy two separate parts of the mission space. S&T's job is to 
push the boundaries of technology, provide evolving 
technologies. TSA's part of the mission space is to take more 
advanced technologies, prototypes, things that will be entering 
in the marketplace soon, induct them, test them, give 
manufacturers improvements. So it is a continuum.
    S&T will work for a few years, 3 or 4 or 5, to advance 
technology while we are operating in the marketplace, and then 
when their technologies are mature enough, they will transition 
them to us to actually assess.
    Mr. Donovan. But none of the items that they have--and I am 
not criticizing their work; I am trying to figure out why it is 
such a long period of time--the things that they have tested, 
the technology that they have either proven to be workable or 
not workable, is still not in the field, it still hasn't been 
passed over to you to be put in the field yet? Am I 
understanding that correctly?
    Mr. Roberts. Well, the program is framed out in near-, mid-
, and far-term goals. Our near goals were video analytics to 
help these guys do, that are deployed currently, the FOVEA 
tool, at the Washington Metropolitan Area Center. So our near-
term objectives and deliverables, the low-hanging fruit, for 
lack of a better word, is deployed now into the developmental 
testing realm and is near term with our operators.
    The farther--the mid-term is automated detection of leave-
behind bags. That is near-term. The further term is the harder 
problem: Detecting threats being brought in, either worn or 
carried in, in a high throughput open system. These are the 
longer-term goals as we establish the program, and they are 
about 3 to 5 years. Technology of this magnitude and for this 
hard problem is a long development time line.
    Mr. Donovan. Three to 5 years, is that 3 to 5 years from 
the beginning or 3 to 5 years from now?
    Mr. Roberts. Three to 5 years from now.
    Mr. Donovan. Thank you.
    I am way over my time, Mr. Chairman, I apologize.
    Mr. Katko. Not at all. Well, that concludes the hearing. I 
want to thank the witnesses for their thoughtful testimony and 
for discussing how TSA and S&T collaborate to address unique 
security threats facing transit systems.
    To say the least, you are an impressive panel. You all have 
very impressive backgrounds, and we all thank you for the 
things you do to help keep this country safe.
    I think in this time of increased threats--and we all know 
about them. We get briefed on a regular basis, and we see them 
on TV. The fact that we had the first attempted suicide bombing 
of a railway facility in the United States is a sober reminder 
of the ever-evolving threat.
    So we need to be ever-vigilant, and we need to continue to 
work together, to continue to be a--need to conduct robust 
oversight of what you are doing, but we definitely need to get 
your information. It is impressive how much better the rail 
side is than the aviation side is about getting technologies to 
the front lines, and even on your side, it is still difficult, 
given some of the hurdles you need to go through. So we are 
constantly trying to get past those hurdles to make sure that 
we give the front-line folks all the tools we have at our 
disposal. There is nothing more frustrating than seeing 
somebody with a good idea and that good idea never gets to 
front lines because of bureaucratic nonsense. That is something 
we are constantly fighting against.
    So thank you all very much. You helped us and you helped us 
advance that cause.
    Members of the committee may have some additional questions 
for the witnesses, and we will ask you to respond to these in 
writing. Pursuant to committee rule VII(D), the hearing record 
will be held open for 10 days.
    Without objection, the subcommittee stands adjourned. Thank 
you all.
    [Whereupon, at 3:50 p.m., the subcommittees were 
adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
